8009 34TH Avenue South, Suite 200
Minneapolis, MN 55425
952-896-3700
Direct Dial: (952) 837-3249
Direct Fax: (952) 767-7449
E-mail: jandreen@erstad.com

November 1, 2019

Via E-Filing and U.S. Mail
Clerk of Court
The Supreme Court of the United States
One First Street, NE
Washington, DC 20543
RE:

Kimberly Watso, et al. v. Jodi Harpstead, et al.
Supreme Court Case No. 19-550
Our File No.: 10031.0332

Dear Clerk:
Enclosed in the above-entitled matter please find an executed Waiver on behalf of Scott County.
Please let me know if you have any questions. Thank you.
Best regards,
ERSTAD & RIEMER, P.A.

James R. Andreen
James R. Andreen
JRA:smm
Enclosure
cc:
Robert Sirianni, Jr., Counsel for Petitioners
Aaron Winter, Counsel for Jodi Harpstead, in her official capacity as Commissioner of
the Minnesota Department of Human Services
Richard Duncan, Counsel for Judge John Jacobson, in his official capacity, and the Tribal
Court of the Shakopee Mdewakanton Sioux (Dakota) Community
Joseph Plumer, Counsel for Judge Mary Ringhand, in her official capacity, and the Tribal
Court of the Red Lake Band of Chippewa Indians

